APPENDIX

APPENDIX A
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
UNITED STATES OF AMERICA
v.
MICHAEL P. O’DONNELL,
Defendant.
Criminal Case No. 13-10262-DPYV
DEFENDANT’S TRIAL STIPULATION
The
defendant Michael P.
O’Donnell
(“Defendant”) stipulates and admits that he (1)
engaged in a scheme or artifice to defraud or obtain
money by means of materially false statements or
misrepresentations; and (2) did so knowingly. He
further stipulates and admits to the following:
O’Donnell was a self-employed loan originator
operating through his mortgage loan originator
business AMEX Home Mortgage Corporation, located
in Middleton, Massachusetts. As a loan originator,
O’Donnell completed mortgage loan applications
based on information purportedly supplied by
individuals seeking to obtain loans for the purchase
or refinance of real estate, submitted these
applications to mortgage companies, which then
funded the loans, if approved. In or about October
2006 through April 2007, O’Donnell engaged in a
scheme to defraud mortgage lenders in connection
with the refinancing of a three-family dwelling
located at 40 Harbor Street in Salem, Massachusetts
(“the Harbor Street Property”).
In 2005, L.T. purchased the Harbor Street
Property and has lived in one of i ts units since that
time. The deed was in the names of L.T. and M.A., her
daughter. In late 2006, L.T. sought to refinance her
la

mortgage to reduce her monthly payments. In or
about February and March 2007, O’Donnell
knowingly submitted a loan application containing
material, false information about L.T.’s income,
employment and assets to Homecomings Financial
Network, Inc. (“Homecomings”), located in New
Jersey. In conjunction with the materially false
representations in that application, O’Donnell: (1)
provided bogus bank account statements [Exhibit
2.13], (2) provided bogus letters from tax
preparer/accountant John Caruso (a.k.a. John Carter)
falsely representing that Caruso had prepared L.T. ‘s
tax returns [Exhibits 2.14, 2.15], and
(3) arranged for Caruso to provide a fraudulent verbal
verification of L.T.’s employment. The loan
application package also falsely reflected that L.T.
would pay over $31,000 of her own money as part of
the refinancing, which was a material factor in
Homecoming’s risk analysis and decision to approve
the loan.
L.T. has a grade school education and does not
speak or read English. She never completed the
Uniform Residential Loan Application dated October
19, 2006 for a $352,000 loan, which O’Donnell
knowingly submitted to Homecomings. [Exhibit 2.05]
L.T.’s supposed signature on the loan application
dated October 19, 2006 is a forgery, although the
signature on the loan application dated March 7, 2007
[Exhibit 2.06] is a true signature.
Moreover, the employment, income and asset
information that O’Donnell provided for L.T. in the
loan applications is false. Specifically, instead of
earning over $10,000 per month as the falsified
applications claimed, L.T., in reality, earned about
$1,200 each month at that time. L.T. never had
$50,000, or even nearly that much, on deposit in a
bank account, and she never provided any income or
2a

asset information to O’Donnell. Moreover, O’Donnell
fabricated the Bank of America account statements
and then submitted them to Homecomings.
Further, L.T. never hired John Carter or John
Caruso to prepare her tax returns and does not know
anyone by those names. Caruso, in turn, had an
arrangement with O’Donnell going back several j^ears
in which O’Donnell engaged Caruso to provide false
letters, tax documents and verbal verifications of
employment to lenders on loans O’Donnell sought on
behalf of his clients. O’Donnell’s arrangement with
Caruso included his use of the alias John Carter.
Caruso knew that if a lender called his office asking
to speak to John Carter, then the lender was referring
to a fraudulent loan, and Caruso provided the
requested employment verification. Finally, Caruso
never prepared tax returns or anything else for L.T.
and did not know her.
Because L.T. in fact did not have over $31,000
to put towards the refinancing, O’Donnell paid the
money using his AMEX Home Mortgage bank
account. Based on the fraudulent representations in
the loan application and the HUD-1 settlement
statement, and the $37,392.16 that O’Donnell
provided at closing, Homecomings funded a $352,000
loan, secured by the Harbor Street Property, to L.T.
O’Donnell received $14,698 in various broker fees as
a result of this loan, which L.T. never approved.
To recoup the $37,392.16 that be had put into
the first transaction, O’Donnell submitted an
application on behalf of L.T. for a second mortgage
■ loan in the amount of $44,000.00. O’Donnell
submitted the application and other documentation to
Countrywide, where Countrywide Home- Loans
employees underwrote and processed the loan
application. In conjunction with this second loan
application, O’Donnell knowingly submitted the same
3a

false information and documentation as he had to
Homecomings, i.e.,: (I) a loan application in which he
falsely inflated L.T.’s income and assets, (2) bogus
Bank of America account statements, and (3) a bogus
letter from Caruso falsely advising that he had
prepared L.T.’s tax returns. O’Donnell also arranged
for Caruso to provide a fraudulent verbal verification
of L.T.’s employment.
Regarding the documents submitted to
Countrywide on her behalf, L.T. never completed the
Uniform Residential Loan Application dated October
19, 2006 for a $44,000 loan [Exhibit 1.07], L.T.’s
supposed signature on the loan application dated
October 19, 2006 is a forgery, although the signature
on the loan application dated April 20, 2007 [Exhibit
1.06] is a true signature.
Countrywide’s approval of L.T.’s loan
application was conditioned upon satisfactory
completion of various conditions, including borrowerwritten explanations of previous credit inquiries and
late credit line payments. Countrywide also
requested, among other information, a letter from a
certified public accountant stating that L.T, has been
self-employed for two years. O’Donnell received the
list of conditions from Countrywide on or about March
26, 2007. [Exhibit 1.12] O’Donnell, in turn, fabricated
responses from L.T. to answer Countrywide’s
questions about credit inquiries and late credit line
payments. He then, again, forged L.T.’s signature and
forwarded these responses to Countrywide. [Exhibit
1.15] In response to Countrywide’s request for a CPA
letter, O’Donnell also provided a copy of the bogus
letter from Caruso, falsely advising that he had
prepared L.T.’s tax returns and verifying that L.T.
was supposedly self-employed at the time. L.T.,
however, never created or signed the documents that
O’Donnell provided to Countrywide [Exhibit 1.12],
4a

nor did she authorize O’Donnell to provide such
information on her behalf to Countrywide.
The false information concerning L.T.’s income,
assets
and employment was
material to
Countrywide’s decision to approve the $44,000 loan
application. Indeed, if Countrywide had known that
the. income, asset and employment information
provided for L.T. was not true, Countrywide would
not have approved the loan application that
O’Donnell submitted. The $44,000 Countrywide loan
closed on or about April 20, 2007, and O’Donnell
received $37,392 directly from the proceeds by a check
payable to AMEX Home Mortgage, along with an
additional $1,198 in fees.
O’Donnell admits and stipulates to the
admission of the attached documents marked as
Exhibits 1 -9, 11 and all subparts thereof. lie further
admits and stipulates to the attached Stipulations,
previously filed with the Court as Docket Numbers 86
-93.
Defendant’s Signature:

As/ Michael P. O’Donnell
MICHAEL P. O’DONNELL

Date:

7/10/15

Approved:

/s/ Jeffrey A.. Denner
JEFFREY A. DENNER

Date:

7/10/15

5a

APPENDIX B
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS
UNITED STATES OF AMERICA
v.
MICHAEL P. O’DONNELL,
Defendant.
CRIMINAL NO. 13CR10262
VIOLATIONS:
18 U.S.C. § 1344 (Bank Fraud)
18U.S.C. § 982(a)(2), 981(a)(1)(C) &
28 U.S.C. § 2461(c) (Criminal Forfeiture)
INDICTMENT
The Grand Jury charges that:
At all times relevant to this Indictment:
1.
Defendant Michael P.
O’Donnell
(hereinafter “O’DONNELL”) was an individual
residing in Middleton. Massachusetts.
AMEX Home Mortgage Corporation
(hereinafter “AMEX Home Mortgage”) was a business
organized under
Massachusetts
law
which
maintained an office at One Central Street, Suite 201,
Middleton, Massachusetts.
2.

Countrywide Bank, FSB (hereinafter
“Countrywide Bank) was a federal savings bank with
offices at 119 North Fairfax Street, Suite 500,
Alexandria, VA, 22314 and Homecomings Financial
Network, Inc. (hereinafter “Homecomings”) was a
corporation organized and existing under the laws of
3.

6a

Delaware with offices at 9 Sylvan Way, Suite 100,
Parsippany, New Jersey, 07054.
THE SCHEME TO DEFRAUD
4. Beginning in or about January 2004 and
continuing through in or about December 2007,
O’DONNELL engaged in a scheme to defraud and to
obtain money and property of various mortgage
lenders in connection with the origination of
residential mortgage loans secured by property
located in Massachusetts.
5. At all times relevant to this indictment,
O’DONNELL was a loan originator employed by
AMEX Home Mortgage, a mortgage loan origination
company nominally operated by O’DONNELL’S wife.
As a loan originator for AMEX Home Mortgage,
O’DONNELL completed mortgage loan applications
based upon information purportedly supplied, by
individuals seeking to obtain mortgage loans for the
purchase or refinance of real estate, and submitted
these applications to mortgage companies which in
turn would fund the loans, if approved. O’DONNELL
operated a bank account in the name of AMEX Home
Mortgage at North Shore Bank.
6. As a part of the scheme to defraud the
mortgage lenders, O’DONNELL knowingly submitted
loan applications to lenders containing material
misrepresentations about the terms of the
transactions for which financing was being sought,
but
including
not
limited
to
material
misrepresentations about income, assets, and funds
to be paid by the borrower at loan closings.
7. As a part of the scheme to defraud the
mortgage lenders, defendant O’DONNELL prepared,
and caused to be prepared, false and fraudulent
7a

material
supporting
the
documents
misrepresentations on the loan applications about
income, assets, and funds to be paid by the borrowers
at loan closings, and he submitted these documents to
the lenders. These bogus documents included tax
returns and Form W-2 Wage and Tax Statements,
letters purporting to be from an accoun tant employed
by the borrowers, bank account statements, and gift
letters from purported relatives of the loan applicants
confirming bogus gifts to the borrowers.
8. As a part of the scheme to defraud the
mortgage lenders, O’DONNELL arranged to supply
the funds required to be paid by the borrower at loan
closings, creating the false appearance that borrowers
had complied with the terms of their loa n a greements.
O’DONNELL routinely arranged for such funds to be
repaid from proceeds of loans to the borrowers.
.9. As a part of the scheme to defraud the
mortgage lenders, defendant O’DONNELL received
compensation, through.AMEX Home Mortgage, based
on fees and commissions for loans that were funded
and closed.
10. The transactions for which O’DONNELL
prepared and submitted materially false loan
applications,
and arranged sham payments
purporting to come from the borrower at loan closings,
included but were not limited to the following:
03/12/07 Loan to L.T. -40 Harbor Street. Salem
a. On or about March 12, 2007, O’DONNELL
arranged a $352,000 first mortgage loan from
Homecomings to L.T., secured by property owned by
L.T. and M.A. at 40 Harbor Street, Salem,
Massachusetts. At the loan closing, the loan
documents reflected that L.T. and M.A. paid
8a

$37,612.16 in funds due from the borrower. In truth
and in fact, on or about March 12, 2007, O’DONNELL
withdrew the sum of $37,392.16 from the account of
AMEX Home Mortgage and paid the sum to the
closing attorney. In truth and in fact, as defendant
O’DONNELL well knew, L.T. and M.A. paid no funds
at the loan closing.
b. In conjunction with this loan, in or about
February and March, 2007, O’DONNELL submitted
a loan application to Homecomings and knowingly (1)
falsely inflated the loan applicant’s income and
assets, (2) provided bogus bank account statements
and bogus letters from the purported tax preparer
and accountant of the loan applicant falsely advising
that the accountant had prepared the applicant’s tax
returns, and (3) arranged a fraudulent verbal
verification of the applicant’s employment with the
purported accountant.
04/25/07 Loan to L.T. -40 Harbor Street. Salem. MA
c. On or about April 20, 2007, O’DONNELL
arranged a $44,000.00 loan from Countrywide Bank
to L.T. that was secured by a second mortgage on
property owned by L.T. and M.A. at 40 Harbor Street,
This
loan
enabled
Massachusetts.
Salem,
O’DONNELL and AMEX.Home Mortgage to be repaid
the sum of $37,392.16, which had been supplied by
O’DONNELL in conjunction with the above described
mortgage loan made on March 12, 2007.
d. In conjunction with the April 20, 2007 loan,
defendant O’DONNELL knowingly (I) submitted a
loan application for the borrower that inflated the
loan applicant’s income and assets and (2) provided
bogus bank account statements and bogus letters
from the purported tax preparer and accountant of

9a

the loan applicant falsely advising that the
accountant had prepared the applicant’s tax returns.
e. On or about April 25, 2007, defendant
O’DONNELL received a check in the amount of
$37,392.00 from the proceeds of Countrywide Bank’s
$44,000.00 loan to L.T.
COUNT I
(Bank Fraud -18 U.S.C. § 1344)
11. The United States Attorney re-alleges and
incorporates by reference paragraphs 1 through 10 of
this Indictment and further charges that:
12. On or about April 20, 2007, in the District
of Massachusetts and elsewhere,
MICHAEL P. O’DONNELL,
the defendant herein, together with others known and
unknown to the Grand Jury, knowingly executed and
attempted to execute a scheme and artifice to defraud
Countrywide Bank, FSB, a federally-insured
financial institution, and to obtain moneys, funds,
credits, assets, securities, and other property owned
by and under the custody and control of Countrywide
Bank, FSB, by means of false and fraudulent
pretenses, representations, and promises concerning
material facts and matters in conjunction with a
mortgage loan in the amount of $44,000 for property
located at 40 Harbor Street, Salem, Massachusetts.
All in violation of Title 18, United States Code,
Sections 1344 and 2.

10a

FRAUD FORFEITURE .ALLEGATIONS
(18 U.S.C. §§ 982(A)(2), 981(a)(1)(c) & 28 U.S.C.
§ 2461(c))
13. The allegations of Count One of this
Indictment are hereby re-alleged and incorporated by
reference for the purpose of alleging forfeiture
pursuant
to
Title
18,
United
States
Code,Section982(a)(2),Title 18,United States Code,
Section981(a)(l)(c)andTitle28, United States Code,
Section 2461( c).
14. Upon conviction of the offense alleged in
Count One of this Indictment, the defendant,
MICHAEL P. O’DONNELL
shall forfeit to the United States, pursuant to Title 18,
United States Code, Section 981(a)(l)( c) and Title 28,
United States Code, Section 2461( c), any property,
real or personal, that constitutes, or is derived from,
proceeds traceable, to the commission of the offenses,
and/or shall forfeit to the United States, pursuant to
Title 18, United States Code, Section 982(a)(2) any
property constituting, or derived from, proceeds
obtained directly or indirectly, as a result of the
offenses.
15. If any of the property described in
paragraph 14 hereof as being forfeitable pursuant to
Title 18, United States Code, Section 982(a)(2), Title
18, United States Code, Section 981(a)(l)( c) and Title
28, United States Code, Section 2461( c), as a result
of any act or omission of the defendant
a. cannot be located upon the exercise of due
diligence;
b. has been transferred to, sold to, or deposited
with a third party;
11a

c. has been placed beyond the jurisdiction of
this Court;
d. has been substantially diminished in value;
or
e. has been commingled with other property
which cannot be divided without difficulty;
it is the intention of the United States, pursuant to
Title 28, United States Code, Section. 2461( c) and
Title 18, United States Code, Section 982(b)(1), both
incorporating Title 21, United States Code, Section
853(P), to seek forfeiture of all other property of the
defendant up to the value of the property described in
paragraph 14 above.
All pursuant to Title 18, United States Code,
Section 982, Title 18, United States Code, Section 981
and Title 28, United States Code, Section 2461('c).
A TRUE BILL
/s/ Brenda L. Hannon
Foreperson of the Grand Jury
/s/ Lori J. Holik
Lori J. Holik
Assistant U.S. Attorney
DISTRICT OF MASSACHUSETTS September , 2013
Returned into the District Court by the Grand Jurors
and filed.
Is/
Deputy Clerk
9/11/13
12:35 ms

12a

APPENDIX C
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
UNITED STATES OF AMERICA
v.
MICHAEL P. O’DONNELL,
Defendant.
No. l:13-cr-10262-DPW
DEFENDANT’S MOTION TO DISMISS
AND INCORPORATED MEMORANDUM OF LAW
The defendant, Michael O’Donnell, by and
through undersigned counsel, hereby respectfully
requests this Honorable Court to dismiss Count One
of the Indictment alleging a violation of 18 U.S.C. §
1344 (bank fraud) for failure to state a criminal
offense and for lack of jurisdiction pursua nt to Fed. R.
Crim. P. 12(b)(3)(B). As grounds therefore, the
indictment fails to satisfy an element of § 1344 which
requires that the defrauded bank be insured by the
Federal Depository Insurance Corporation (“FDIC”).
Contrary to the indictment, the bank at issue is not
FDIC-insured and the count alleging bank fraud, must
be dismissed.
FACTS
A.

Relevant Facts Set Forth in the Indictment

The defendant, Michael O’Donnell, is alleged to
be a “loan originator employed by AMEX Home
Mortgage.” Indictment [hereinafter, Inc!.] at ^ 4. On
March 12, 2007, O’Donnell allegedly "'arranged a
$352,000. first mortgage loan from Homecomings
[Financial Network] to L.T., secured by property
owned by L.T. and M.A.” Id. at *1 10a. A payment of
13a

$37,612.16 was owed by the borrower, L.T., to
Homecoming. Loan documents allegedly state that
L.T. and M.A. paid the $37,612.16 from their own
funds, but the money was actually drawn from AMEX
Home Mortgage’s account. Id.
On April 20, 2007, O’Donnell allegedly
“arranged a $44,000.00 loan from Countrywide
Bank[, FSB] to L.T. that was secured by a second
mortgage on property owned by L.T. and M.A. Id. at
f 10c. The indictment alleges that this loan was
obtained to “enable[] O’DONNELL and AMEX Home
Mortgage to be repaid the sum of $37,392.16 which
had been supplied by O’DONNELL.” Id. In connection
with the loan application, O’Donnell also allegedly
“inflated the loan applicant’s income and assets” and
“provided bogus bank account statements.” Id. at K
lOd.
Count One1 of the indictment states that
O’Donnell “executed and attempted to execute a
scheme and artifice to defraud Countrywide Bank,
FSB, a federally insured financial institution...” in
violation of 18 U.S.C. § 1344. Id. at 12.
Countrywide Bank, FSB, the bank that
O’Donnell is alleged to have defrauded in violation of
18 U.S.C. § 1344, is not the bank O’Donnell actually
dealt with. Instead, O’Donnell transacted with an
FSB,
entity . related to Countrywide Bank,
Countrywide Home Loans, Inc. See Loan Origination
A.
Document,
attached
hereto
as
Exhibit
Countrywide Home Loans, Inc. is not FDIC-insured.

1 This is a one-count indictment.

14a

ARGUMENT
The indictment states that the defendant, Michael P.
O’Donnell, defrauded an FDIC insured bank,
FSB
(hereinafter,
Countrywide
Bank,
“Countrywide”), as required for prosecution under 18
U.S.C. § 1344. As argued infra, the loan origination
documents attached hereto as Exhibit A make clear,
on their face, that the entity O’Donnell actually
interacted with and received the loan from is
Countrywide Home Loans (hereinafter, “Home
Loans”). Home Loans, the entity the loan actually
originated from, is not FDIC-insured. Therefore, the
government’s indictment fails as a matter of law and
Count One must be dismissed.
A.

Motion to Dismiss Standard

An indictment “must be a plain, concise, and
definite written statement of the essential facts
constituting the offense charged.” Fed. R. Crim. P.
7(c)(1). A district court has the power, however; to
dismiss an indictment prior to trial if there is “a defect
in the indictment or information.” See Fed. R. Crim.
P. 12(b)(3)(B). An indictment is insufficient if it fails
to “specifjy] the elements of the offense charged [and]
fairly apprises the defendant of the charge against
which he must defend.” United States v. Savarese,
686 F.3d 1, 6 (1st Cir. 2012). An indictment that
tracks the language of the underlying statute is
usually sufficient to meet this standard, provided that
the excerpted statutory language sets out all elements
of the offense without material uncertainty. United
States v. Troy, 618 F.3d 27, 34 (1st Cir. 2010).
B.

Facts Beyond the Scope of the Indictment

Normally, an indictment's allegations are
assumed to be true, and “courts routinely rebuff
15a

efforts to use a motion to dismiss as a wav to test the
sufficiency of the evidence behind an indictment's
allegations.” United States v, Guerrier, 669 F.3d 1, 3—
4 (1st Cir. 2011). However, the First Circuit has held
that courts may consider facts beyond the scope of the
complaint “for documents the authenticity of which
are not disputed by the parties.” Watterson v. Page,
987 F.2d 1, 4 (1st Cir. 1993). The analysis a court
must do in the civil- 12(b)(6) context is nearly identical
to the type of analysis a court must do in the criminal 12(b)(3)(B) context. The court in United Sta tes v. PittDes Moines, Inc., 970 F.Supp.
1346, 1349
(N.D.Ill. 1997) put it.accordingly:
A motion to dismiss an indictment is
more similar to a civil Rule 12(b)(6)
motion, which tests the sufficiency of the
underlying
complaint
(here
the
indictment). Thus, as with a rule
12(b)(6) motion to dismiss, the court
accepts as true all factual allegations in
the
indictment.
Additionally,
all
uncontested allegations to which the
parties had an opportunity to respond
are taken as true.
970 F.Supp. at 1349 (internal citations omitted)
(emphasis added). If the court can consider facts
beyond dispute in the civil-12(b)(6) context, there is
no reason why a court ought not be able to consider
them likewise in the criminal-12(b)(3)(B) context,
where the nature and purpose of the analyses is
identical. Here, the face of the loan origination
documents attached hereto make clear that O’Donnell
was not dealing with Countrywide, but instead Home
Loans, a bank not insured with, the FDIC.

16a

C.

Application of 18 U.S.C. § 1344
I.

Elements of § 1344

The elements of § 1344 are “well established:
(1) the defendant must engage in a scheme or artifice
to defraud, or must make false statements or
misrepresentations to obtain money from (2) a
financial institution and (3) must do so knowingly.”
United States v. Colon -Rodriguez, 696 F.3d 102, 106
(1st Cir. 2012). The second prong, that the defrauded
bank is a “financial institution” as used in Title 18, is
derived from 18 U.S.C. § 20\s definition of a financial
institution as “an insured depository institution (as
defined in section 3(c)(2) of the Federal Deposit
Insurance Act).” United States v. Ayewoh, 627 F.3d
914, 917 (1st Cir. 2010).2 Section 3(c)(2) of the Federal
Deposit Insurance Act, in turn, defines an “‘insured
depository institution1 as ‘any bank or savings
association the deposits of which are insured by the
FDIC] pursuant to the Federal Deposit Insurance
Act.’” Id., quoting 12 U.S.C. § 1813(c)(2). The purpose
of § 1344, therefore, is to “protect the federal
government’s interest as an insurer of financial
institutions.” United States v. Laljie, 184 F.3d 180,
189 (2d Cir. 1999). That the defrauded bank is
federally insured is thus a “substanti ve element of the
crime.” Ayewoh, 627 F.3d at 917. Not only this,, but
the First Circuit has held that the defrauded bank’s
FDIC-insured status is a “jurisdictional prerequisite”
to enforcement of § 1344,. United States v. Brandon,
17 F.3d 409, 424 (1st Cir. 1994).

2 18 U.S.C. § 20 defines “financial institution" in numerous
ways not relevant here.
17a

II.

This Court Should Dismiss Count One
Because the Bank From Which
O’Donnell Actually Received the Loan
Was Not FDIC-Insured.

The closest case, on point in the First Circuit
addressing this issue is United Stales v. Walsh, 75
F.3d 1 (1st Cir. 1996). In Walsh, the defendant was
convicted under § 1344 for “carr[ying] out a scheme to
defraud Dime Savings Bank of New York (“DimeNY”).” Id. at 3. There, the defendant dealt directly
with Dime-NY’s wholly-owned subsidiaries, Dime
Real Estate Services of Massachusetts, Inc. (“DimeMA”). Id. Dime-NY was federally insured; Dime-MA
was not. Id. The court rejected the defendant’s
argument “that the evidence failed to show that the
victim was a federally insured financial institution”
because “Dime-NY was a federally insured bank, but
Dime-MA--the immediate maker of the loans--was
not.” Id. at 9. Noting that it “confine|s its holding] to
the present facts” the Court upheld the conviction,
finding that the defrauded, bank (Dime-MA) was a
“wholly-owned subsidiary” and “alter-ego of DimeNY.” Id. Moreover, the court also found that Dime-NY
essentially controlled the.basic operations of DimeMA and any loan issued by Dime-MA. was
“immediate^ assigned to Dime-NY.” Id. As a result,
the court held that “the mortgage fraud perpetrated
against Dime-MA was effectively a fraud against
Dime-NY.” Id.
The facts in the present case are substantially
different than in Walsh. Instead, this case is much
more similar to United Stales v. Bortnick, Crim. No.
03-CR-0414 (E.D.P.A. October 17, '2004)3 which
analyzed, and ultimately distinguished, Walsh. In
3 This case has been attached as Exhibit B.

18a

\

Bortnick, the indictment alleged that “Congress
Financial Corporation [the defrauded bank] . . . was a
wholly-owned subsidiary of First Union National
Bank, which was a financial institution, the deposits
of which were insured by the Federal Deposit
Insurance Corporation.” Id. at *6. The indictment
further stated that the defendant “execute[d] a
scheme to defraud Congress and First Union National
Bank, and to obtain monies owned by and under the
care, custody, and control of Congress and First Union
National Bank.” Id. After “[t] a king both statements in
the Indictment with respect to First Union as true,
the Court [found] that the United States has not
sufficiently alleged a bank fraud claim against
Defendant.” Id. The court held that simply stating in
the indictment that the defrauded company was a
wholly-owned subsidiary of an FDIC-insured
company is insufficient to establish a nexus between
the fraud and the FDIC-insured monies. Id. at *6-7.
The court then went on to distinguish Walsh because
the government in Walsh had alleged and proved a
connection between the monies held by the defrauded
bank and the FDIC-insured parent bank. Id. Case law
in other circuits supports the view espoused by
Bortnick that more than a mere parent and whollyowned. subsidiary relationship is required. United
States v. Bennett, 621 F.3d 1131, 1135-37 (9th Cir.
2010) (conviction for a violation of § 1344 overturned
where the government only proved that the defrauded
bank (Equicredit) was a wholly-owned subsidiary of
an FDIC-insured bank (Bank of America)); United
States v. White, 882 F.2d. 250, 251-52 (7"> Cir. 1989)
(Posner, J.) (indictment dismissed where the
defendant made false statements to a wholly-owned
subsidiary of an FDIC-insured bank because the ,
statements to the subsidiary was not intended to
influence the FDIC-insured parent).
19a

In this case, the government alleged in the
indictment that O’Donnell simply defrauded
Countrywide. In none of the loan origination
documents is Countrywide listed: instead Home
Loans is the only entity listed on any of the forms.
There is, therefore, even less here than in the
Bortnick case. In the Bortnick case, the government,
at the very least, correctly alleged which entity the
defendant actually dealt with. Unlike Walsh, there is
no indication in the indictment, whatsoever, that the
entity O’Donnell actually dealt has any form of
relationship between itself and Countrywide. This
appears to be implicit in the indictment which fails to
reference Home Loans in any way and only lists the
parent company. Bortnick, Bennett, and White make
clear that such a relationship, in and of itself, is
insufficient for purposes of § 1344. It does not prove a
connection between the funds of one and the funds of
the other. Simply put, the indictment fails to allege a
connection between the entity O’Donnell actually
dealt with (an entity not insured with the FDIC) and
Countrywide. Moreover, it fails to apprise O’Donnell
of the nature of the charges against him, namely that
it incorrectly indicates which entity O’Donnell
actually had dealings with.
CONCLUSION
The indictment states that the defendant,
Michael P. O’Donnell, defrauded an FDIC insured
bank, Countrywide Bank, FSB, as required for
prosecution under 18 U..S.C. § 1344. This Court may
look beyond the scope of the indictment and consider
facts beyond dispute, namely that the entity, that
actually ■ issued the loan was Countrywide Home
Loans, an entity not insured with the FDIC.
Therefore, the government’s indictment must fail and
Count One must be dismissed.
20a

Date: March 28, 2014
Respectfully submitted,
MICHAEL P. O’DONNELL
By and through his attorney,
/s/ Jeffrey A. Denner
Jeffrey A. Denner, BBOn-120520
Adamo.L. Lanza, BBO# 689190
J.A. Denner & Associates, P.C.
Four Longfellow Place, 35th Floor
Boston, MA 02114
Tel. (617) 227-2800
Fax (617) 973-1562
j dennc r@dennerlaw.com
CERTIFICATE OF SERVICE
I, Jeffrey A. Denner, hereby certify that on this
the 28th day of March 2014, I caused a true copy of
the foregoing Defendant's Motion to Dismiss and
Incorporated Memorandum ofLaw to be served upon
all necessary parties by virtue of electronically filing
the same via the CM/ECF system.
I si Jeffrey A. Denner
Jeffrey A. Denner

21a

*ZZ

v xiamxa

SOVEREIGN BANK
FUNDS TRANSFER NOTIFICATION
04-25-2007
IOLTA/MCGONAGLE & MCGONAGLE PC
MASS IOLTA
125 MAIN ST
READING, MA 01867
To: IOLTA/MCGONAGLE & MCGONAGLE PC
This funds transfer was received on 04/25/2007, for
$43,749.00
The funds have been CREDITED to account

^**********ggg^

Sender:
Name : BK OF NYC
ABA# : 021000018
Reference # : FTS0701243561000
Received from : COUNTRYWIDE HOME
LOANS
By Order Of: COUNTRYWIDE HOM E LOANS
Fed Reference # :
20070425C1QAE01X00020804250800FT01
Additional Funds Transfer Information:
Beneficiary: MCGONAGLE MCGONAGLE
Beneficiary Bank:
'k'k'k

Originator Info: COUNTRYWIDE HOME LOANS
Originator Bank: COUNTRYWIDE HOME LOANS
Originator Bank Info: LORENZA
TORIBIO(166084081) MCGONAGLE ALLISON 781
942 3770
Bank to Bank and all other FRB info fields:
23a

Lawyers Title
Insurance Corporation
NATIONAL HEADQUARTERS
RICHMOND, VIRGINIA
LOAN POLICY
SCHEDULE A
CASE NUMBER
L.T0RIBI02
DATE OF POLICY

April 25, 2007 11:42 AM
LOAN

$44,000.00
OWNER’S
POLICY NUMBER

K56-0053886
LOAN
OWNER’S

1. Name of Insured: Countrywide Home Loans, Inc.
ISAOA/ATIMA
2. The estate or interest referred to herein is at Date
of Policy vested in: Lorenza Toribio, Marleny Abreau
a/k/a Marleny Abreu
3. The estate or interest in the land described in this
Schedule and which is encumbered by the insured
mortgage is: FEE SIMPLE
4. The insured mortgage, and assignment thereof, if
any, are described as follows: Mortgage from Lorenza
Toribio, Marleny Abreau a/k/a Marleny Abreu To
Countrywide Home Loans, Inc. ISAOA/ATEMA dated
April 20, 2007 in the face amount of $44,000.00,
recorded on April 25, 2007 in the Essex County

24a

Registry of Deeds as Instrument No. or Book 26771,
Page 514.
5. The land referred to in this policy is described as
follows: 40 Harbor Street, Salem. Massachusetts
01970
SEE EXHIBIT A FOR LEGAL DESCRIPTION ATTACHED
HERETO AND MADE A PART HEREOF

Is/
Authorized Officer or Agent
McGonagle & McGonagle, PC
125 Main Street
Reading, Massachusetts 01867

25a

«9Z
t c t-~

21 Q2~S8£ (p~4)

*

.♦ j .«.» •

Wet..

■(IMMilW S««S«Pt5M««» «*«« USDf“F»*SS>«<tS“

l?S»^Sffi8»SBSO«8raO«_

mw*i*

•&m*m*ia‘m-Bmniraettvai
mtamimraai ■ -bum mhwom jM«!^»<.gnrosa^9^gwiaB|wa»«)ff>.Wtt
ganaaiaxjBiMt -H?- -at* aou.T»wa«Y
sgxn arnc saaw ^SgauiCTra v
sw, 35w«o iC6«rJ
t&i.kjvo^ 1K^<©#ss«ks( dss&sx®ssAcrsatarsia «
*j <*?“»< MI« EW AH 1 ™|.|ut
■xmv m<A so $r
VAI
HZAZV^iHOS3«9lSri
srwvsVAV.ttw
EtJ»«AT?jtf^BT35KIW
jcs*«
mas
•targu*
V/K
V/W
SMVffBOOO
ym
t&Mnamnar
asras
v/w
«n«5
am 5
Mai.vatJsnsB3 aoeru
* am S
«*•r*i a
V/W
mttavutxaxn.
V/H
«rTJ *
*STtS*

SS«g ATWWBS JBaWD

v/w
«OO'0K

AMOD

* ffSSf ftSZftAXUUKO

V/H
JLMSSVMVXAQO

ewuit&$u»min

*a ** **o) ^srnp7*■■‘OB3MC1U ^B50««3rWS3310jroXHCCT5V‘WX01*
-----------'—$ taaf(nHiMiawtto&ufn9 9W9cri9JjfrN^iTJUM. teseatmoausojo)
-r“-------“■*

wmi tk> sna xsnw'

(cx}t **/. tM«^caj^/fcCiMOBso«aaoa

Q“^>«c«othi wgjbi issa »w jkoomm

“^Q— *TK>e«n^as^m5ari«BsaaaB»r

fi

^£-3ClD A MS

* X>T!'<$

‘3
■AL,
0
■«

S»«*rE># XTISE

a *rnr'4 .

*W •

3 W4
i

4
E

»
3

*
J2,| * JusacsaiafflUD
O * aaaimvmwv
-asaa

-3®re* HCtiOtgSXtn'VmUVMW
mssmoo .
NCiirrVJTOd[AWIKn-3Ca
»*DMI8a*3«M«

t % -£ jru mouvjombo'

^tncoi
‘woGawxaMwoo

~

' xgg?^ ^' ^ou^tjMdi |qww_sa>r

•‘namvflMVsgwHimi

*^223^53®$'

£3NSOUV9NBOrD
inw^OT—cf*«t»»WW—»%«»•*»*«—»«

PifU/StSXTErTuHtxiXSTlTUi 1 XEf WJiWyXr'^ED itrstow xhmih

axva okiaKTO^jja'-Jffi “*« *» sou®
utesi^wEjW SSVBXJUM
:»kk
xMmasre
isvhswm (JR'fjfj'i .waKmv muaoif

/CtP

mmiiii

^ezaivzBaio
mKOOVAXKUOW

~TT^®3T. ..
■^£SSP®RSIt»««w

Mmni«a»oB)Kii
83X981

JUQB8 aMHSDUWtS
9t*«-s»i-ei4 *»j AKrwr-m-™oo5iE-t5t-®i« *v5»a*"!«c?3»x
ctno vs«
KT *(f*S ‘**M P«*M»se}f «

X33HS a;« XCMAEimoa
\ ■', u /1 >. i i Wi

Sli9J3:d2.6 xyj 3f:sc «ni2/ao/£'*

Countrywide
Document Return Checklist
RETURN THIS COVER LETTER WITH THE CLOSED LOAN
TO:

AMERICA’S WHOLESALE LENDER
99 ROSEWOOD DRIVE, Suite 225
DANVERS, MA 01928
Borrower: Toribio
Documents must be returned to the address listed
above, and in the following order:
0
CLOSING INSTRUCTIONS
°
NOTE (Original signed Note and 1 Attorney
Certified Copy)
0
ADDENDUM to NOTE (if applicable) {Original
signed Addendum and 1 Attorney Certified
Copy}
0
NOTE ALLONGE (if applicable) {Original signed
Allonge and 1 Attorney Certified Copy}
0
MORTGAGE {2 Attorney Certified Copies}
0
MORTGAGE RIDERS (if applicable) [2 Attorney
certified Copies}
0
SIGNATURE/NAME AFFIDAVIT {Original signed
affidavit and 1 Attorney Certi fied Copies}
°
SPECIFIC POWER OF ATTORNEY (If applicable)
FINAL HUD-1
O
FINAL TRUTH-IN-LENDING & ITEMIZATION OF
AMOUNT FINANCED
0. NOTICE OF RIGHT TO CANCEL (If applicable)
°
LOAN APPLICATION DISCLOSURE
ACKNOWLEDGMENT
BORROWER PROPERTY CONDITION CERTIFICATION

27a

/ <j
mvjMUCAX WHOLESALE UNDER
STATEMENT OEDEOUCTJOMS f«OM LOAN AMOUNT
fiblUtOMRS NAME-A

LOAN NLiKRStt

■’d *

OKQKKR

9¥,

iOANAMOUKT

M

DEDUCTIONS
DISCOUNT rQINTS ( >to:__ _______ ,__________
__
TAX SERVICE FEE to: Coftwtrvwide.Tai Servfoftg
h.oOD CHECK FEE w;
■
UNDERWRITING FEE to: LSNftFR r?RLVT THE WORD t,l£XOK^\
property Valuation fee m:
APPRAISAL WAIVER FEE to; __
APPLICATION FP-H to:

/t f A ide*

^£*2a

DAY5#

INTEREST

IftCQUMPa
hazard.
.MONTHS#______
.TAXES
MONTHS#______
PMl
MONTHS#_____
FLOOD
.MONTHS#_____
AGGREGATE analysis adjustment
ESCROW BALANCE TRANSFER
Other

\
T

lq:_

Other,

■

lo:

(Mate psy»W« satfee Morale*

qu*

Brricn-}

fiyibh it:

~77^>

CREDIT REPORT FEik sK./i O
OWOINAllOM FEE:

7

.

COURIER FEE: .____________
PROCESS[NO FEE:____ j
~~

°aa-

'__ gga.aa
,

I

■ 63

CLOSING COSTS PAID BY BROKER: S____

(W k< &rscimw4 «c roc ?>• ti/b'E.r po KUDj

*Bnrfcsr Pmsiera
•[■BUtw^trtTOlhirtWthtwieerflteirUO't.Wiiaaw

ms

s^.MBwtnPjsraib'iofrf

l*or> +

TOTAL AMOUNT TO SB WISUSD

BOOKER COST

PAJ
(Ow enkwsfvtmlag-i&tets fi»an

Total amount op check, uuc brojcer

28a

tf»«tslkrtoil !>^i >e»w« <• i<-iu)

^0~:

-A»r*lH>? t&sNw

i-crmite

Frar<OttiTRVVIK

W»J

P. Bi/31

f-5U

Crnttawiwie*
AMERICAN WHOUfAtE LENDER
99 fto»«s*ooc! Drive
Oonvtrs. #>. OJ923

CLOSING ATTORNEY CHECKLIST
OflWeNBmbmt (l8Q)M$-8337«(9TB)7&-3m
OostegFaiNaeiiwi (arT)3ts-*m
Oate&®SJSI!asL^££sSU Exmjlew:

Jm« CutsMtt, CJo*1b» Ssjwj vbor: 1707
Bfeuu? Create: 17U
Putty XLsrt&Mrtts: 173<
Lu»4* Aa&elase: 1730

Closing Date:.

V/Wd7

Scheduling Coniinrutriou

Borrows Nacre: (-'£)'*‘fry\'C(^ ~Tj ^ t b J 0
* J(ff^
n ,
Closing Attorney: '•'‘/Vi
/T\C00^(1* PV**.- P J3xi2j2L““ 37 VP
Finn NapstArkh^T^
^
P„ * -^w

7z/^ >rg7>n sr. fan&Jr*^

pSiSfS^Ri^ei^^l^dreS:

_

____

fT\C (r Q b/LA

(®

' (^SYV^

(toirflb^rva#Pywte^Dwpk*« «sii M7i^ro«m!.c4CJ&.e?!ll)
1.

Cicsine Prelaw*. Utw &*ra Till* Co., if ytwfcvfv* wa c5<m4 * k«i >«l. u*t oNtet to

toe

Catj^ryasiAfiu^ajrsat.Ei^st.jaf53-a£,Sl-»lJaoAASLirQ

............

iflMHWdtfJLaaKW£«u#.tt«^
WJrios InwroPiSaa?fcc Coapvv, Utxrte*4. ifytw h*vf tax c3m*1 a tc*a 'vilt tow

<>CBcf a fe^jrVW®
AJiMttl Tb*<c.

4

M2i?T

fcrt pud:
(c*cW cm}

i/"
Tt*t« new tow:

of. %____

.ante

®>0

' 'Hrtec Cttrtins CtA'Art*o\* Winyt*" fcnattfspr-VabtoJ

:

Afters*? F*e? (fim* List MX F«s)

Settfemaa/ Closing Fee
Title Exam
Poc Prep
Survey Fee
Other '
Other________ __

, V(Tt>
sZ%5~

Awtract/Title &e«-cb 5
Title Jnrurrwr
fhecoriUngFep
Courier Ferj^&y
Other,
Other

s -7?
-I.

OJJBZ.
S
$ 'rd-e^

5

. TOTM. AXi'OHNKY FVJSi.

Martgasw Tlrts CU*uw

f*i# !*>►<» f:\UKU

Cosenywifn* Hosne LowK.’lir.
Ir’t luccwofi tad^ umjjis. atima
l £00 tepo CtKyoa S4 SY-TJ
3MVsUey,CA9H-*3
CtesU} PfvcectifMg Umtr

CfW8*>,*'»v K*w* !.w«, Inc.
h'» ii«ccr*uyi **&•«■.* ***$*. A TIM*

CcwuyyviA? Hon< Lc*m
tr’j igcctjsnn *>*•«
ATTMA
9* Rnvr»<x%4!)*«. SfiW 225.
PWf'-flT. MA CjV?3

29a

?,o. »<« M'.w, rrvx -11
for. V/w'H.TX JfIM

'*>f.»20-cr Ql;!2tt

Mil

mmmu

/fwCOiMrnriOl

Heloc Closing Cost Acksatmledtinaeat
ic£?Cx.-.

Alta:

LUted

below

is

Fnu«; ■'.

/{I___________

Co'.iTjvrywlSA ~"AiJoHiiUt

H£lOC Jit**."

ADDITIONAL PEES ARE NOT A110WEDTRawnWUTyeSr li«l«
few and far back t» HIV 1Z5-?6)Jyi-gal cueing cteramems will not be
anaaMed untfl tbla fax has beep r*5t*{Y*d. Thsmk yoa.

ylA*lV.dJJ

SdHta 1

/
Clcuing/ Escrow Fct:
Abstract/ Title Scmb:

mi
7-fj

<icc i.-tf t&>«'4feir is ii*e itiK d/YT'j

Title Entm:
Title Binder;
Doc prep Tide:

(for BM

w tec Kj*n «f YT. U£, ?J, w MA)

Notary — Third Hipty:
Attorney/ Seulmem Fee:
Title insurance:

an.
.

Courier

__(ooj I*purv4 Itc ptJigy^st*

<k tea*
ts««n oj«Vo»- JIrtO.OCft.M. H»e-!<>«r, »V»-»
iisekae if yoa *»»

ch*» C-*r)

%

(ma eUuwebk » tbs cates 0/ VT. VtA. <* W£)

~7^?

(&*r >« q)fexr6We w &a war of VT)

Recording:
Survey:
Wire fee:
Doc Signing Fes:
Electronic Doc Fes:
Gr&si Deed Fee:
Loan Tle*in-Fee:
Oder.
Other
■Afl Btfcc Broker P« DfesrijtfJe*® «a B«&r Cv-*tj Cr*eu JJs# Ajranwet util DtatiAin,
t«
diteknetd as tam «a finalMmM. Ssz&jit: W«A« U*
wt !?»*■* ainiaawMwt iW dtneiwHt/’*
U "DrUif tnM Fee", ltw« NStlWsroW 41arW»d *t -£r*i»r !#•» J?rr* »y ■&♦%! fl*vt.

**AdJssapi3
rawrrmatchtwiwd.iitXACtt*. BtAzees/AODmoKAL
FCKSASISMOI'AlAOWSpn
completed

Ah* /}]•■Un­

P«te:.

30a

ikofia

|||Coyr»ts
Closing Instruction Certification
Cloaiag Agent to icvicw and initial the following inyfcructiofw

-3.

1. All dated documents to reflect flic “Anticipated Closing Date” on
page 1 of the Closing Instructions.
Ctaiag /iffSi taittali:
2, Notary section of Mortgage to be filled out completely. Be sure to
include borrowers) namc(s), dole, and county. Notary’* name
must be printed or stamped under Notary’s Signature.
ClosinK Agent initial

/In-

3. Any non-borrovrer vested on tide, must sign the Mortgage, Final
Tru(h-in~tending, .Ifetniwiion a /.Amount Financed, and Notice o f
Right to Cancel (If appJtrnMf.)
Cloting A$a\X miUslft:

au

4, No revisions or changes ty any closing document without pre­
approval from your Countrywide Funder. B(?rrower(i) to initial
any approved revisions of changes.
CJmuig Agail iuilralx:

Cl

5. In the event the loan does NOT close, or the borro wer rescinds,
prevent unnecessary funding, for borrowers raduditog, please
fax the slgnctLNRTC to S?7-2S5-ft0i8.

(%

Closing Agent initial.*^

6. Borrower^) MUSI' sign the "Notice o JittgtH to Cane?!'’ for all
Owner Occupied Purchase Heiec-a.

Ca

Ckwng Agent inidair *■

7. Closing Agent to review fhe ‘‘CoontryvUte Dstcument Return
Checklist."
Ctonint Agent UitlislK.

8. Closing Agent to review and sign the “Connfr ywide ffl/P-I
Ccrtl /cation " form.
Ctosina Agent initialj;_

Cn

Closing
Name:.

SiRasUirK

Thereby acknowledge and certify that the instructions Jis'sd sbov,* b*vs be*a
adhered to. 1 understand that failure to comply with tbcw iastryriion.t will rrouU in
removal from the "Cwntryvidt ifemt Loruv Approved Oa*iaz A%<-i>t* Uitd

3 la

Gotintiyvvide"
s
HUP-1 Certification Form
Closing Agent tn review ajtd initial lie following instructors ^1 -

1. Settlement charges MUST reflcctai!aedfi£JMfitExamples: Appraisal .Eec to reflect "ptid to Smith
A p/raisa! Co, "ami Credit Report Fee to re feet " piid to
Ltmtha / Credit."
Claring Ajail initio!j:

a

2. Broker rebate must be disclosed as “Broker rreinium
paid by Lender,” and must reflect proper payee.
Example: Broker Premium $2,100.00 to ABC Mortgage
Co.,
icier.
Ck»ktA*t»l

3. All broker credits to be placed on page 2 of the IStiD-1.
.Clmtinj Agml initi

ir

(W pertains to Heines only)

4. Settlement charges to be itemized and roust yOT exceed
fees disclosed on pages 3-5 of the "Home. Bquit y Credit
Line Agreement and Disclosure.”
Clcndny, Agotl ini

aJy

Closing Agent:

A

Name:.

I hereby acknowledge aod certify tUai tfce Instructions listed above hpvr t>cca
adhered to. I uadentsed that failure to comply with these J&mnacilon* wiil rmil io
removal from the "Countrvvide ifome Ijjons Appmvtt Gotfnt? Agxrtfn lk< ”

32a

EXHIBIT B

33a

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF
PENNSYLVANIA
UNITED STATES,
Plaintiff,
v.
GENE BORTNICK,
Defendant.
Criminal Action No. 03-CR-0414
MEMORANDUM AND ORDER
Present]}- before the Court is the Motion to
Dismiss Count One for Failure to State a Criminal
Offense filed by Defendant Gene Bortnick on October
17, 2004 (Doc. No. 88). For the reasons that follow,
Defendant’s Motion is GRANTED.
I.

STANDARD OF I,AW

Rule 7(c)(1) of the Federal Rides of Criminal
Procedure states that “[t]he indictment . . . shall be a
plain,' concise and definite written statement of the
essential facts constituting the offense charged.” Fed.
R. Grim. P. 7(c)(1). The indictment “shall state the
statute, rule, regulation or other provision of law
which the defendant is alleged therein to have
violated.” Id. A valid indictment must contain all the
elements of the crime alleged. United States v.
Spinner. 180 F.3d 514 (3d. Cir. 1999). The indictment
must contain . specific facts that satisfy all the
elements of the alleged violation: a recitation “in
general terms the essential elements of the offense” is
insufficient. United States v. Panarella. 277 F.3d 678,
684-85 (3d Cir. 2002). Moreover, the district court
34 a

may review the facts in the indictment to see whether,
as a matter of law, they reflect a proper interpretation
of criminal activity under the relevant criminal
statute. Id, In considering a motion to dismiss an
indictment, the Court must accept as true all factual
allegations set forth in the indictment. United States
v. Besmaiian, 910 F.2d 1153, 1154 (3d Cir. 1990).
Although Rule 47 of the Federal Rules of Criminal
Procedure permits affidavits in support of motions
generally, a district court may not consider evidence
outside the indictment when the indictment’s
sufficiency is challenged. Fed, R. Crim, P. 47 advisory
committee’s note 3; Wright, Fed. Prac. & Proc. § 194,
364-67: United States v. Ginzburg, 338 F.2d 12, 17 (3d
Cir. 1964) (upholding district court’s striking of
affidavit and exhibits in support of a motion to
dismiss and stating that the court’s analysis was
“correctly limited . . . to the face of the indictment”).
Such a rule prevents a motion for dismissal from
being converted into a determination of factual issues,
a task which is properly reserved for the jury.
II.

DISCUSSION

Count One of the Second Superceding
Indictment (“Indictment”) alleges that Defendant
violated 18 U.S.C. § 1344, the Bank Fraud Statute,
which states that:
Whoever knowingly executes,
or
attempts to execute, a scheme or artifice
(1)
(2)

to
defraud
a
financial
institution; or
to obtain any of the moneys,
funds,
credits,
assets,
securities, or other property
35a

owned by, or under the custody
or control of, a financial
institution, by means of false or
fraudulent
pretenses,
representations, or promises;
shall be fined not more than
$1,000,000 or imprisoned not
more than 30 years, or both.
18 U.S.C. § 1344. Defendant’s Motion to Dismiss
Count One turns on the United States’ alleged failure
to assert that Defendant defrauded a financial
institution, as statutorily defined. “Financial
institution” is defined at 18 U.S.C. § 20 and includes,
among other things, a bank insured by the Federal
Deposit Insurance Corporation (“FDIC”). 18 U.S.C.
§ 20(1). The purpose of § 1344 then, is to “protect the
federal government’s interest as an. insurer of
financial institutions.” United States v. Laljie, 184
F.3d 180, 189 (2d Cir. 1999). Thus, to survive a motion
to dismiss for failing to state a criminal offense, an
indictment under § 13d4 must contain proof that the
victim is a federally-insured financial institution. In
addition to being an essential element of a criminal
charge under § 1344, proof of FDIC insurance is the
basis for federal jurisdiction in bank fraud cases.
United States v. Schultz. 17 F.3d 723. 725 (5th Cir.
1994).
Both parties agree that Congress Financial
Corporation (“Congress”), the entity to which
Defendant allegedly made fraudulent statements, is
not a federally-insured financial institution.
Government’s Opp. at 2; Defs. Mot. to Dismiss at 1.
Congress, however, is a wholly-owned subsidiary of
First Union National Bank (“First Union”), which is a
financial institution. United States v. McGlothin.
36a

2002 WL 717080, *2 (3d Cir. 2002) (taking judicial
notice that First Union is a “financial institution”
under 18 U.S.C. § 1344). Defendant reads Count One
to be premised on the theory that Congress was the
“sole victim” of the bank fraud scheme and states that
there are no factual allegations present in the
indictment that Defendant engaged in any fraudulent
activity with respect to First Union. Defs. Mot. to
Dismiss at 1-2. Defendant thus contends that the
United States has not alleged facts that sa tisfy all the
elements necessary for an indictment under § 1344.
Id. at 2.
For its part, the United States claims that
Congress’ status as a non-financial institution should
not mandate dismissal because the money or funds
obtained by Defendant through his allegedly
fraudulent scheme were actually owned or under the
custody and control of First Union and because the
close business and monetary relationship between
Congress and First1 Union leads to the conclusion that
a fraud on Congress is a fraud on First Union.
Government’s Opp. At 3. In support of these
contentions, the government offers the affidavit of
Andrew Robin, the Executive Vice President of
Congress. In his affidavit, Mr. Robin states that
Congress is a wholly-owned subsidiary of First Union;
that the two entities file consolidated financial
statements; that First Union provides Congress with
its operating capital: and that First Union determines
what kind of loan products Congress will offer.
Government’s Opp., Ex. A, Robin Aff.' at *| 5-11. In its
Memorandum of Law in Opposition to Defendant’s
Motion to Dismiss and at the November 1, 2004
hearing on that Motion, the United States relied
almost solely on the facts contained in (lie affidavit of

37a

Mr. Robin. Though this information would have been
useful to the grand jury in fashioning its indictment,
well-established federal procedure and Third Circuit
case law discussed above deem it improper for this
Court to consider factual allegations in an affidavit
when considering the instant motion to dismiss.
As legal support for its position, the
Government alleges in its brief that United States v.
Walsh. 75 F.3d 1 (1st Cir. 1996) is directly on point,
as'a case in which the First Circuit held that the Bank
Fraud Statute does not require the immediate victim
of the fraud to be a financial institution. In Walsh, the
defendant was convicted under § 1344 for offenses
related to a scheme to fraudulently obtain mortgages
from a wholty-owned subsidiary of Dime Savings
Bank of New York. The subsidiary was not federally
insured. Noting that it limited its holding to the facts
in that case, the Court upheld the conviction, finding
that the subsidiary was essentially the alter ego of the
federally-insured parent and that holding defendant
liable for defrauding that institution best served the
purposes underlying § 1344. Id. at 9. The First Circuit
cited/the following facts as relevant to its decision in
Walsh: 1) that the subsidiary was wholly-owned, 2)
that the parent provided all the subsidiary’s
operating capital, 3) that the parent dictated what
loan products the subsidiary would offer, and 4) that
the parent was assigned and serviced all mortgages
entered into by the subsidiary. Id.
The Government also cites United States v.
Pelullo. 964 F.2d 193 (3d Cir. 1992). as support for its
contention that a fraud on Congress is a fraud upon
its parent, First Union. In Pelullo, the Third Circuit
was confronted with whether a defendant convictedof
wire fraud under 18 U.S.C. § 1343 was subject to. the
38a

extended 10 year statute oflimita turns provided for in
18 U.S.C. § 3293(2). The extended statute of
limitations in § 3293(2) is only applicable to wire
fraud offenses that “affect a financial institution.” 18
U.S.C. § 3293(2). The defendant claimed that the ten
year statute of limitations was inapplicable, as the
party to the loan at issue, was not a financial
institution, but rather a wholly-owned subsidiary of
one. Pelullo. 964 F.2d, at 214. The Third Circuit found
that the ten year statute of limitations did apply,
stating that “the statute. . . broadly applies to any act
of wire fraud ‘that affects a financial institution’” and
noting that “[defendant’s] argument would have more
force if the statu I e provided for an extended
limitations period where the financial institution was
the object of fraud.” IcL at 216.
The Court agrees with the Government that
Walsh is on point in. this instance, but cannot concur
that Pelullo provides any guidance in this
circumstance. While the Third. Circuit held in Pelullo
that the showing of n parent-subsidiary relationship
between a financial institution and a defrauded entity
may be sufficient to trigger the extended statute of
limitations under the wire fraud statute, this Court
does not believe that its holding in that case is binding
on the question of whether the showing of such a
relationship is sufficient to support an indictment for
bank fraud. The extended statute of limitations
requirement in the wire fraud statute is written more
broadly than are the essential elements of the bank
fraud statute. The former, requires only that the
defendant’s activity “affect.” a financial institution,
while the latter requires that the defendant
fraudulently obtain, the monies or other property of a
financial institution. The financial institution

39a

element of the bank fraud statute is much closer to
requiring a showing that the feclerahy-msured entity
was the “object of fraud.”
As the statements in Mr. Robin's affidavit are
outside the scope of the Court’s inquiry, the question
for this Court is whether the indictment itself
contains factual allegations, such as the ones cited in
Walsh, sufficient to satisfy the “financial institution”
requirement of § 1344. The factual references to First
Union in Count One of the Indictment are as follows:
1. Paragraph (1 of Count One states that
“Congress Financial Corporation . . . was a
wholly-owned subsidiary of First Union
National Bank, which was a financial
institution, the deposits of which were
insured by the Federal Deposit Insurance
Corporation.
Second
Superceding
Indictment Count 1, *j[ 6.
2. Paragraph 10 of Count One states that
“defendant Gene Bortnick knowingly
executed and attempted to execute a
scheme to defraud Congress and First
Union National Bank, and to obtain monies
owned by and under the care, custody, and
control of Congress and First Union
National Bank . . . .” Second Superceding
Indictment Count 1, ^ 10.
The remainder of Count One details a variety of
allegedly fraudulent activities engaged in by
Defendant with respect to Congress.
Taking both statements in the Indictment with
respect to First Union as true, the Court finds that
the United States has not sufficiently alleged a bank
fraud claim against Defendant. To begin, the
reference to First Union in. paragraph 10 is a

40 a

...

recitation of the elements of the offense, which does
not satisfy the United States’ burden of alleging
specific facts demonstrating harm to a financial
institution. As for paragraph 6, it establishes only
that Congress is a wholly-owned subsidiary of First
Union. As discussed above, the Third Circuit’s holding
in Pellulo does not require this Court to find that this
fact is sufficient to support the financial institution
element of § 1344. While, this Court might conclude
that First Union was naturally affected by
defendant’s alleged fraud on one of its wholly-owned
subsidiaries, it cannot leap to the conclusion that
defendant’s alleged fraud deprived First Union of its
monies or other property without more information
than the bare assertion that a parent-subsidiary
relationship existed between the two.
Moreover, applying the principles of Walsh, the
Court finds that the factual allegations of the
indictment are insufficient to establish that Congress
is the equivalent of a financial institution under the
bank fraud statute. Unlike, in Walsh, the indictment
establishes no connection between First Union’s
federally-insured, funds and those extended to
Defendant by Congress.
The indictment contains no factual allegations
that would support an indictment of Defendant for
fraudulent activities deeded at First Union, the only
financial institution mentioned in Count One. The
indictment does contain factual allegations that
would support an indictment of Defendant for
fraudulent activities directed at Congress. However,
this Court can locate nr. binding case law that would
support a finding that the United States’ assertion
that Congress is a subsidiary of First Union is a
specific enough factual basis to satisfy the “financial
-11 a

institution” requirement of § 1344. At the very least,
the United States would need to allege facts
establishing some connection between Defendant’s
activities and the federally-insured funds. As it has
not done so, Defendant’s Motion to Dismiss is granted
for failure to state criminal offense.
An appropriate Order follows.

42a

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF
PENNSYLVANIA
UNITED STATES,
Plaintiff,
v.
GENE BORTNICK,
Defendant.
Criminal Action No. 03-CIT0414
ORDER
AND NOW, this 29th day of November, 2004,
it is hereby ORDERED that the Motion, to Dismiss
Count One for Failure to State a Criminal Offense
filed by Defendant Gene Bortnick on October 17, 2004
(Doc. No. 88), is GRANTED.
BY THE COURT:
Legrome D. Davis, J.

43 a

APPENDIX D
07/23/2014
Full docket text for document 51:
Judge Douglas P. Woodlock: ELECTRONIC ORDER
entered denying 47 Motion to Dismiss as to Michael
P. O’Donnell (1); finding as moot 50 Motion for
hearing as to Michael P. O'Donnell (1). Count One of
the Indictment alleges on its face a crime within the
jurisdiction of this court. Motion to Dismiss practice
is not the proper vehicle to test the sufficiency of the
evidence supporting the allegation. (Woodlock,
Douglas) (Entered: 07/23/2014)

4 4-a

APPENDIXE
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
UNITED STATES OF AMERICA
v.
MICHAEL P, O’DONNELL
BEFORE THE HONORABLE DOUGLAS P.
WOODCOCK
UNITED STATES DISTRICT JUDGE
MOTION HEARING
July 10, 2015
CRIMINAL ACTION
13-10262-DPW-l
APPEARANCES:
UNITED STATES ATTORNEY’S OFFICE, (By
AUSA Mark J. Balthazard and AUSA Veronica M.
Lei), 1 Courthouse Way, Suite 9200, Boston,
Massachusetts 02210, on behalf of the United States
of America
DENNER PELLEGRINO, LLP, (By Jeffrey A.
Denner, Esq.), Four Longfellow Place, Suite 3501,
35th Floor, Boston, Massachusetts 02114, on behalf of
the Defendant
DASILVA LAW GROUP, (By Joseph G. Keller, Jr.,
Esq.), 4 Longfellow Place, 35th. Floor, Boston,
Massachusetts 02114, on behalf of the Defendant
Courtroom No. 1
1 Courthouse Way
Boston, Massachusetts 02210
45a

James P. Gibbons, RPR., RMR
Official Court Reporter
1 Courthouse Way, Suite 7205
Boston, Massachusetts 02210
j msgibbons@y ahoo. com
PROCEEDINGS
THE CLERK: All rise for this Honorable
Court.
This is United States of America versus

Michael P.
O’Donnell, Criminal Action No. 13-10262. Court is open. You may be seated.
THE COURT: I have this motion for a
nonjury trial, but it seems it's not altogether
completed, and I have a jury coming-in on Monday.
And I am not continuing this case any further.
So what is going to happen? What
contingencies do we have here that should give me
pause about whether or not I am bringing a jury in.
I read this and it says -- and I’m reading now
the government’s response, “If the Court accepts a
waiver” -- and I would accept a waiver if i t’s knowing
and voluntary -- “the parties are- in the process of
negotiating the details of a stipulation.”
Well, there can’t be a waiver until there’s a
stipulation.
MR. DENNER: Wc have a stipulation, your
Honor.
THE COURT: You have the stipulation?

46a

MR. DENNER: We have agreed on the
stipulation. It has not been signed yet, but it is
completely agreed upon. It can be signed right now.
THE COURT: All right.
And the parties are satisfied that that’s going
to be enough to deal with the case?
MR. DENNER: The defense is, your Honor.
THE COURT: Okay.
MS. LEI: Well, the government obviously
does want the stipulation read into the record and
exhibits admitted so that we have a fulsome record
going into next week.
THE COURT: Of course, but there is an
agreement as to the stipulation?
MS. LEI: There is a stipulation of agreedupon facts, yes.
THE COURT: And there are attached
exhibits or what?
MS. LEI: There are exhibits referenced, and
we have the exhibits here ready to offer into evidence.
THE COURT: Well, I think what I would
like to do is I would like to take a look at a copy of this
stipulation. If it’s going to be entered into by the
parties, it’s got to be signed. And then we’ll take this
up in another ten minutes or so if it’s that close to
being resolved, and then I will inquire of Mr.
O’Donnell.
MS. LEI: Just to warn you, your Honor, we
made a few changes this morning, but it’s in final
form. It just -- if we’re goi n.g to dock et it, I would want
to edit it and give it to defense. But we can do that in
47a

the next few minutes. I can give this to you to read,
and when we reconvene, we will have a final copy.
THE COURT: But I want a clean copy. I
don’t want this with initials all around the thing.
MS. LEI: Right.
THE COURT: So you will pass me a copy of
it. You’ll get a clean copy, and then we’ll proceed from
there with respect to the stipulation and waiver,
okay?
MS. LEI: Yes, your Honor.
THE COURT: Pass it to Mr. Lovett.
THE CLERK: All rise.
MS. LEI: Sure, your Honor.
(Recess.)
THE CLERK: All rise.
.This Honorable Court is back in session. You
may be seated.
. THE COURT: Well, I’ve been quickly looking
through the stipulation, and I have some questions,
perhaps issues, with it.
The first is I think that the stipulation has to
stand alone. There is a stipulation, that admits to the
allegations contained in the .indictment, except for the
allegation that the lender charged was Countrywide
Bank. That incorporates by reference the indictment.
I don’t know if the parties want to incorporate
by reference the indictment or not. I would have
thought that the Trial Stipulation would stand alone
and not have to make reference to the indictment

itself.
■18 a

Second, just quickly going through, and using
page 2, it states that “L.T. would testify”... and then
talks about that.
That’s the language of an Alford plea. It doesn’t
dispute that she testified that way. I don’t know
whether he’s stipulating to that.
The way in which I would expect this to be
referenced is “L.T. has a grade-school education, does
not speak English,” that sort of thing, rather than
what she testifies to.
The short of it is I think it's got shortcomings,
and so I would like to understand what the parties
have in mind for it.
My view, I think, is rather than making a Rube
Goldberg machine with cross-references to matters
that are not attached to the Trial Stipulation and to
avoid some suggestion that there could be, but isn’t
raised, some dispute with respect to testimony, for
instance of L.T. here, that it should state explicitly, if
there is a stipulation, that what L.T. would testify to
is, in fact, the truth. And that, of course, goes to
Caruso as well.
Caruso will testify that he included the name
and alias of John Carter.
I mean, I assume that the stipulation is that he
did, but.this is an inchoate stipulation as far as I’m
concerned. Until it is cleaned up, I’m not going to
accept it.
And it has to be cleaned up now, meaning this
morning. We have a jury coming in., and the jury is
going to come in if this isn’t cleaned up this morning.

49a

So do you have questions about my approach to

this?
I mean, for instance, there are cross-references,
and Ms. Lei has indicated that you want the exhibits
that are referenced, but are they cross-referenced?
Are they part of the stipulation itself? I mean, that’s
the problem with the drafting of the stipulation, and,
of course, the last-minute quality of this.
But are there questions you have with me
about what I want in this stipulation?
MS. LEI: I don’t think so, your Honor. I can
revise this so that it is a stand-alone document. I
think I understand your concerns.
THE COURT: 1 mean, 1 look at this and
I haven’t cross-referenced the
think that
indictment, but it seems to me that it covers all of the
allegations in the indictment. Maybe it doesn’t, but it
seems to. But I don’t want a cross-reference to the
indictment here. That simply raises some additional
issues.
And for these purposes 1 am going to read the
stipulation, to Mr. O’Donnell to be sure that he agrees
with everything that’s in the stipulation. Of course it
will be signed, but it wiil be read into the record as
part of the colloquy to determine whether or not Mr.
O’Donnell knowingly and voluntarily is waiving his
right to a jury trial on all the issues in the case.
MS. LEI: And we would like that as well.
THE COURT: So how. long to
straightened and signed off on?

get it

MS. LEI: We can come back in a half-hour, if
that’s enough time.
50 a

k-

THE COURT: Okay. So we’ll go through it,
and I’ll assume that you've captured my concerns and
addressed them, and I will start with -- I’m sorry.
(Counsel conferred.)
MS. LEI: Maybe 45 minutes so we can take
a break and confer.
THE COURT: I will be generous. It will be
10:30.
MS. LEI: Thank you.
THE COURT: All right.
THE CLERK: Ai! rise.
(Recess.)
THE CLERK: All rise.
This Honorable Court is back in session. You
may be seated.
THE COURT: Well, I have had handed to me
a revised Defendant’s Trial Stipulation, which seems
to be in order for me, and I am prepared to make an
inquiry of the defendant with respect to waiver of jury
trial.
But I want to know a little bit more as well
about the schedule that the parties have in mind here.
So, first, I guess from the government, what do you
see happening?
MS. LEI: Sure, your Honor.

i

We expect that the bench trial would only last
a day, probably we could finish it from 9:00 to 1:00,
which is your usual scheduled hours.
. Our preference would be to have it occur on
Thursday, because the witness who wc are calling is
51 a

i

flying from California, and she’s already booked a
flight, and so she’s ready to fly in on Wednesday and
testify on Thursday. So that would be our preference.
And then we’ll have one ot her witness who’s local who
would be easy enough to move to Thursday. He was
going to be ready on Monday.
So what’s the defendant’s case then?
MR. DENNER: Your Honor, we would have
somewhere between zero and. two witnesses, probably
one witness, probably not for a particular -- probably
for an hour. You recall tha t we are talking about a Mr.
Fendly.
THE COURT: Right.
MR. DENNER: And we still intend to call
him, not for the purposes of -- subject, of course, to
your decisions -- not for the purposes of the culture of
Countrywide, but for explaining some of the exhibits
that we have and talking about the issue of the federal
connection and federal nexus.
THE COURT: Okay.
Well, I think that i want to start on Wednesday
and.go to Thursday. Friday will be out. I can’t sit on
Friday. I can’t sit on Monday. So I want to be sure I
get this taken care of. so you’ll get your witness in
here -MS. LEI: Okay. we. will contact her.
THE COURT: - for Wednesday, all right?
So let me ask. Mr. Lovett to swear Mr.
O’Donnell, and I will ask him some questions.

52a

MICHAEL P. O’DONNELL, sworn.
THE . COURT: You may be seated, Mr.
O’Donnell.
Mr. O’Donnell, as you. know. from the
conversations that we’ve been having, the: question
before me is whether or not your apparent decision to
waive your right to a jury trial is a knowing and
voluntary act.
In order for me to decide whether that’s the
case, I have to ask you some questions. Some of those
questions are personal in. nature. You’ll understand I
am not trying to delve into your personal life.
I am also going to recite what is the Trial
Stipulation, that is. the things you’re agreeing to in
this case, bearing in mind that there is an open issue
that apparently you want to litigate in the case.
So let me start by asking you how old a man
you are.
THE DEFENDANT: Fifty-three.
THE COURT: How far did you get in school?
THE DEPENDANT: Some college, mostly
college.
THE COURT: How many years of college?
THE DEFEND ANT: Four years, but I never
finished my degree.
THE COURT: What was the course of study
that you were taking?
THE DEFENDANT: Business.
THE COURT: Where was that?

53a

i

k-

THE DEFENDANT: North Adams State
College. It’s now Mass. College of Liberal Arts.
THE COURT: And what have you been
doing for a living for the past ten years or so?
THE DEFENDANT: Owned, a. mortgage - I
was in the mortgage business since out of college, ‘84,
so almost 30 years.
THE COURT: Have you had any difficulty
understanding what, this case is about, what the
government is accusing you of?
THE DEFENDANT: No.
THE COURT: Nave you had an adequate
opportunity to discuss this case with your attorney,
Mr. Denner?
THE DEFENDANT: I have,
THE COURT: Are you satisfied you received .
from him the kind of legal advice that you need to
make your own determination about whether or not
to waive your right to a jury trial?
THE DEFENDANT: I am.
THE COURT Now, you understand that
this is as subtle and difficult a strategic judgment as
a defendant.can make.
Do you understand that?
THE DEFENDANT: Ido.
THE COURT: .And that it’s to some degree
unusual?
THE DEFENDANT: I understand.
THE COURT: There are facts or there are
statistics that come out at various times about the
64 a.

percentage of cases that go jury-waived, but it’s
generally very low.
Do you understand that?
THE DEFENDANT: I do.
THE COURT: So that means that most
defendants are not choosing to go jury-waived.
Do you understand that?
THE DEFENDANT: I do.
THE COURT: I just looked at the calendar
and realized that l am 11 days short of being on the
bench 29 years. I have done it once. The defendant has
asked for it once in that time period. And you should
understand, that that, one time I found the defendant
guilty. You understand, as a consequence, that this is
a very difficult decision to make, for which you can’t
be sure that there is going to be an outcome that’s
favorable to you.
THE DEFENDANT: I understand.
THE COUR'i': And you have discussed this
fully with Mr. Denner; is that right?
THE DEFENDANT: I have in detail.
THE COURT: Can you tell me if you’ve ever
had any problems with substance abuse, either drugs
or alcohol?
THE DEFENDANT: No drugs.
I have had alcohol issues in the past.
THE COURT; Can you explain them in a
general sort of way?
THE DEFENDANT: I have been cited for
drunk driving a few times, more than a few times,
55a

quite a few times. It's been, I think, ten years since
I’ve had that problem .
THE COURT: Do you still drink?
THE DEFENDANT: I do, but not to the
extent I was back then.
THE COURT: Do you think that your
drinking has any effect on your ability to make a clear
judgment in a matter such as this?
THE DEFENDANT: I do not.
THE COURT: Are you satisfied, that you’re
in a position to make that kind of judgment?
THE DEFENDANT: lam.
THE .COURT: Have you ever had any
problem -- not so much a “problem,” but have you ever
had occasion to consult with a mental health
professional, like a psychiatrist, a psychologist, a
psychiatric social worker, or anyone like that?
THE DEFENDANT: No.
TH E - COURT:
prescription drugs?

Are

you

taking

any

THE DEFENDANT: I am for sleeping. It’s
Ambien, just like -- that’s it.
And high-cholesterol medication.
THE COURT: A statin?
THE DEFENDANT: Yes, Simvastatin.
THE COURT: Is any of that interfering with
your ability to make a clear judgment now about
pleading guilty [sic]?
THE DEFENDANT: No.
boa

THE COURT: Are you seeing a physician for
any kind of physical problem?
THE DEFENDANT: Yes.
THE COURT: Just generally, what is it?
THE DEFENDANT: 1 see an oncologist and
a surgeon and radiologist.
THE COURT: And is that an active concern
about cancer?
THE DEFENDANT: It’s always a concern,
but my treatment has gone well, and I’ve been -- I
haven’t had a recurrence in two years, which is a very
good sign.
THE COURT: And the nature of the cancer?
THE DEFENDANT: It was neck and throat.
THE COURT: Neck and throat?
THE DEFENDANT: Neck and throat.
THE COURT: Now, you understand that you
have the right under our Constitution to have a jury
decide this case. A jury is 12 individuals. They have
to be unanimous in making their decision in the case,
and you’re choice, if you go jury-waived., is to have one
person make the choice.
Do you understand that?
THE DEFENDANT: I do.
THE COURT: People who play the odds
probably think that with 12 individuals there is a
better chance that you’re going to have a lack of
unanimity than there is with one individual.
You understand that?

57a

THE DEFENDANT: I do.
THE COURT: One of the reasons that
lawyers and defendants, I think, go to trial before a
jury is that it’s possible to develop potential errors in
the case, errors that could, lead to a reversal on
appeal. And those errors can occur even if the
question is not clear, if the case has not been
presented fairly to the jury. You’re giving up the right
to have that potential for a reversal on appeal as part
of the strategies that you pursue in the case.
You understand that?
THE DEFENDANT: I do.
THE COURT: Now, if I approve this, and
you decided that I am going to decide the case, the
ultimate, issue in the case, but the discrete legal issue
in the case as well.
You understand that?
THE DEFENDANT: I do..
THE COURT: Why are you doing it?
THE DEFENDANT: I believe that you are in
the.best position to understand the documents and
what happened here.
THE COURT: Okay.
'Are you afraid that the
misunderstand and
look at
circumstances
of
this
case
misunderstanding spill over into
legal issue?

jury is going to
the facts and
and
let
that
treatment of the

THE DEFENDANT: I believe it’s a very
technical issue that needs to be explained in detail,
and I’m afraid that a jury with lack of experience in
58a

that specific nature will have a difficult time
understanding the actual facts.
THE COURT': Okay.
Now, I’ve asked this several times, but I will
ask it again.
Have you fully discussed this with your
attorneys?
THE DEFENDANT: Yes, I have.
THE COURT: Arc you satisfied you know
enough about what the potential legal issues are,
what the jury effects might be, to decide that you want
to have a Judge, me, decide this case?
THE DEFENDANT: I am.
THE COURT: 1 told the ]Darties at the outset
that I wanted a defendant’s stipulation that was selfcontained, that involved all the facts that you’re
prepared to agree are proved in this case, and if I
accept this stipulation, that means they are proved.
You don’t get to dispute (hem.
You understand that?
THE DEFENDANT: I do.
THE COURT: Now, Ms. Lei has brought
back a somewhat revised version of this Defendant’s
Trial Stipulation.
Have
attorneys?

you

discussed.- it

fully

with

your

THE DEFENDANT: I have.
THE COURT: And are you prepared to sign
that Trial Stipulation'.-’
THE DEFENDANT: I am.
59a

THE COURT: So what. I am going to do is I
am going to read thi.- to you, and 1 am going to ask
you whether or not .you agree with it, and then, if
that’s the case, I will accept a signed version of it,
Signed by you, signed, by your attorney.
Understand?
THE DEFENDANT: Ido.
THE COURT: Do you have a copy in front of
you?
THE DEFENDANT: Right in front of me,
yes.
THE COURT: So let’s go through it.
It reads: “The defendant Michael P. O’Donnell
stipulates and admits that, he (1) engaged in a scheme
or artifice to defraud or obtain money by means of
materially false statements or misrepresentations;
and, (2) did so knowingly. He further stipulates and
admits to the following:
O’Donnell was a self-employed loan originator
operating through his .mortgage loan originator
business AMEX Home Mortgage Corporation, located
in Middleton, Massachusetts.• As a loan originator,
O’Donnell completed mortgage loan applications
based on information purportedly supplied by
individuals seeking to obtain loans for the purchase
or refinance of real estate, submitted these
applications to mortgage companies, which then
funded the loans, if approved. In. or about October
2006 through April 2007, O’Donnell engaged in a
scheme to defraud mortgage lenders in connection
with the refinancing of a' three-family dwelling
located at 50 [sic] Harbor Street in Salem,
Massachusetts.”
60a

MS. LEI: It's MOT your Honor.
THE COURT: Excuse me.
“40 Harbor Street in Salem. Massachusetts,”
and the reference is in the future to “the Harbor
Street Property.”
“In 2005. L.T. purchased the Harbor Street
Property and has lived in one of its units since that
time. The deed was in the names of L.T. and M.A., her
daughter. In late 2000. L.T. sought to refinance her
mortgage to reduce her monthly payments. In or
about February ami March 2007. O’Donnell
knowingly submitted a loan application containing
material, false information about L.T.’s income,
employment and assets to Homecomings Financial
which will be referred to. as
Network, Inc”
“Homecomings” hereafter - “located in New Jersey.
In
conjunction
vilh
the
materially
false
representations in that application. O’Donnell: (1)
provided bogus bank account statements,” and here
there’s a reference to Exhibit 2.13, is that it?
MS. LEI: Correct, your Honor.
THE COURT: .And what we’re doing is there
will be attached to this siipulation these documents.
This is going to be a self-contained agreement, all
right?
THE DEFENDANT: Yes.
THE COURT: But you’re agreeing that you
provided bogus account statements, and they are
found in Exhibit 2.13?
THE DEFENDANT: Yes.
THE COURT': “(2) provided bogus letters
from tax preparer/acommtant John Caruso, -(also
Gla

known as John Carter) falsely representing that
Caruso had prepared L.T.’,s tax returns.” and here the
reference is to Exhibits 2.14 and 2.15 “and, (3)
arranged for Caruso to provide fraudulent verbal
verification of L.T.’s employment. The loan
application package also falsely reflected that L.T.
would pay over $31,000 of her own money as part of
the refinancing, which was a material fact in
Homecoming’s risk analysis and- decision, to approve
the loan.
“L.T. has a grade school education and does not
speak or read English. She never completed the
Uniform Residential Conn Application dated October
19, 2006 for a $372,000 loan, which O’Donnell
knowingly submitted to ! iomecomings,” and here the
reference is to Exhibit 2.05. “L.T.’s supposed
signature on the loan application dated October 19,
2006 is a forgery, although the signature on the loan
application dated March 7. 2007,” which is Exhibit
2.06, “is a true signs inn;.
“Moreover, the employment, income and asset
information that O’Donnell provided for L.T. in the
loan application is false. Specifically, instead of
earning over $10,000 per month as the falsified
applications claimed, L.T., in reality, earned about
$1,200 a month at that time. L.T. never had $50,000,
or even nearly that much, on deposit in a bank
account, and she never provided any income or asset
information to O’Donnell. Moreover, O’Donnell
fabricated the Bank of America account statements
and then submitted them to Homecomings.
Further, L.T. never lured John Carter or John
Caruso to prepare her tax returns and does not know
anyone by those names. Caruso, in turn, had an

62a

arrangement with O’Donnell going back several years
in which O’Donnell engaged Caruso to provide false
letters, tax documents and verbal verifications of
employment to lenders on loans O'Donnell sought on
behalf of his clients. O’Donnell’s arrangement with
Caruso included his use of the alias John Carter.
Caruso knew that if a lender called his office asking
to speak to John Carter, then the lender was referring
to a fraudulent loan, and Caruso provided the
requested employment verification. Finally, Caruso
never prepared tax returns or anything else for L.T.
and did not know hor.
Because L.T. in fact did not have over $31,000
to put towards the refinancing, O'Donnell paid the
money using his AMEX Home Mortgage bank
account. Based on the fraudulent, representations in
the loan application and the HUD-1 settlement
statement,, and the $37,392.16 that O’Donnell
provided at closing. Homecomings funded a $352,000
loan, secured-by the Harbor Street Property, to. L.T.
O’Donnell received. $14,698 in various broker fees as
a result of this loan, which L.T. never approved.
To recoup his $37,392.16 that he had put into
the first transaction, O’Donnell submitted an
application on behalf of L.T. for a second mortgage
loan in the amount of $44,000. O’Don nclJ submitted
the application and other documentation to
Countrywide, .where Countrywide Home Loans
employees underwrote and processed the loan
application. In conjunction with this second loan
application, O’Donnell knowingly submitted the same
false, information and documentation as he had to
Homecomings, i.e.: (1) a loan application, in which he
falsely inflated L.T.’s income and assets, (2) bogus
Bank of America aecouni statements, and (3) a bogus
63 a

letter from Caruso falsely advising' that he had
prepared L.T.’s tax returns. O'Donnell also arranged
for Caruso to provide a fraudulent verbai verification
of L.T.’s employment.
“Regarding the documents submitted to
Countrywide on her behalf. L.T. never completed the
Uniform Residential Loan Application dated October
19, 2006 for a $44,000 loan.” The reference here is to
Exhibit 1.07. “L.T.’s supposed signature on the loan
application dated October 19, 2006, is a forgery,
although the signature on the loan application dated
October 20, 2007,” which is Exhibit 1.06, “is a true
signature.
Countrywide’s approval of L.T.’s application
was conditioned upon satisfactory completion of
various conditions, including borrower-written
explanations of previous credit inquiries and late
credit line payments. Countrywide also requested,
among other information, a letter from a certified
public accountant stating that L.T. has been selfemployed for two years. O’Donnell received the list of
conditions from Countrywide on or about March 26,
2007.” Here the reference is to Exhibit 1.12.
“O’Donnell, in turn, fabricated responses from L.T. to
answer Countrywide's questions about credit
inquiries and late credit line payments. He then,
again, forged L.T.’s signature and forwarded these
responses to Countrywide.” The reference is to
Exhibit 1.15. “In response to Countrywide’s request
for a CPA letter, O’Don no! I also provided a copy of the
bogus letter from Caruso, falsely advising that he had
prepared L.T.’s tax returns and verifying that L.T.
was supposedly self-employed at the time. L.T.,
however, never created or signed the documents that
O’Donnell provided to Countrywide,” [Exhibit 1.12.]
6-1 a

“nor did she authorize O’Donnell to provide such
information on her behalf to Countvwide.
“The false information concerning L.T’s
income, assets and employment was material to
Countrywide’s decision to approve the $44,000 loan
application. Indeed, if Countrywide had known that
the income,, asset and employment information
provided for L.T. was not true. Countrywide would
not have approved the loan application that
O’Donnell submitted. The $44,000 Countrywide loan
closed on or about April 20, 2007, and O’Donnell
received $37,392 directly f rom the proceeds by a check
payable to AMEX. Home Mortgage, along with an
additional $1,198 in fees.
“O’Donnell admits and stipulates to the
admission of the attached documents marked as
Exhibit 1 - 9, 11 and. all subparts thereof. He further,
admits and stipulates to the attached Stipulations,
which previously were filed with the Court as.Docket
Numbers 86 - 93,” and in the final form all of these
documents will be attached to the stipulation.
So do you agree to all of that?
I’m sorry, Mis. Lei. did you have something you
wanted to add?
MS. LEI: Sure, your Honor. I just wanted to
point out that the attached Exhibits 1 - 9 and 11 are
up on the table.
MR. DENNER: Can I have one second?
THE COURT: Sure.
(Whereupon, the defendant and his attorney
confer.)
THE DEFENDANT: Yes, your Honor.
Ob a

THE COURT: Okay.
So what this means is that these are facts. You
agree to the facts. The facts, these facts, are going to
be part of the determina t ion that I make in this case,
and. these facts are established beyond a reasonable
doubt.
You understand that?
THE DEFENDANT: I do.
THE COURT: So do we have a signed
version of the Defendant's Stipulation?
MR. DENNER: May we sign it right now,
your Honor?
THE COURT Yes, please.
MR. DENNER: If I might approach, your
Honor?
THE COURT: Yes.
(Document, handed to the Court.)
THE COURT: Now. in- addition, it’s necessary
for me to have a signed stipulation of Waiver of Trial
By Jury, arid I take it there is a copy of that?
MR. DENNER: With your permission, your
Honor, we will sign, that as well.
THE COURT: Yes.
(Pause in proceedings.)
MS. LEI: May I approach., your Honor?
THE COURT: Yes, please.
(Document handed to the Court.)

66a

THE COURT; So I have had handed up to
me a signed copy of the Waiver of Trial By Jury signed
by Mr. O’Donnell and Mr. Denner, and by Ms. Lei on
behalf of the government.
Mr. Denner, I'want to ask you (o be sure that
you have discussed fully with your client the
advantages and disadvn ntages of proceeding without
a jury trial but jury-waived?
MR. DENNER: Yes, sir.
THE COURT: Do you have any doubt about
the ability of this defendant knowingly and
voluntarily to waive his right to a jury trial?
MR. DENNER: I do not.
THE COURT: Has anything come to your
attention that would suggest that the defendant may
not be competent to waive a jury trial?
MR. DENNER; No, your Honor:
THE COURT: Thank you.
And, Ms. Lei, has anything come to your
attention that suggests that the defendant may not be
competent or did not knowingly and intelligently
waive his jury-trial right?
MS. LEI: No. your Honor.
THE COURT: Based on the discussion that
we’ve had this morning, I am satisfied that the
defendant
has
knowingly,
voluntarily,
and
intelligently waived tho right to a jury trial, and, as a
consequence, I am going to approve the waiver, which
I’m signing now.
(Pause in proceedings.)

id 7 a

THE COURT: .So 'the next, question,
although I have indicated what I want to do in. terms
of schedule, is to be sure that I have the case law that
the parties want me to be thinking about at this point.
I assume, going through the submissions that
the parties have made, that the parties want me to be
familiar with United States v. Brandon, -which is 17
F.3d 409, a 1994 case of the First Circuit; United
States v. Edelkind, 467 F.3d 791, a First Circuit case
from 2006; and Loughrin -L-O-U-G-.H-R-l-N w United
States, a Supreme Court case from the 2013 term, at
134 S.Ct. 2384.
Are there any other cases that, you would like
me to make myself familiar with?
MR. DENNER: No, sir. 1 think that is our
position.
THE
government?

COURT:

Anything

else

from the

MS. LEI: Wc understand this is in a
different district, but just a reference, US v.
McCloskev-Diaz -THE COURT: Hold on just a second.
MS. LEI: It’s cited in the Proposed Jury
Instruction No. 18 that we submitted. Document 112.
It’s, a District of Puerto Rico case, and it’s 824 -THE COURT: Thus is in the supplemental
instruction?
MS. LEI: That's correct. It’s in the footnote.
THE COURT’: 824'?
MS. LEI: F.Supp,2d 269.

68a

. THE COURT: Okay. Ail right.
So.I will try to be as familiar as I can with those
cases which, it seems to me, shape the legal issue and,
hence, the factual issue in the case.
So the government has indicated, as I
understand it, that we will have Ms. Jenkins here,
and Reade Morrison, I don’t know, male or female?
MS. LEI: Male:.
THE COURT: Mr.
Countrywide underwriter?

Morrison

was . the

MS. LEI: Correct.
THE COURT: And
government’s live witnesses?

those

will

be

the

MS. LEI: Correct.
THE COURT: Okay.
And, Mr. Denner, again, who will you be
calling?
MR. DENNER: Wc would be calling Neill
Fendly, and we may or may not be calling the
defendant.
THE COURT: All right.
So I anticipa te a n vwny that the evidence can be
completed on Wednesday, but as I indicated, my
schedule is such that l want to be sure that we get the
evidence completed next week.
I am not sure that it requires extensive
additional time, but I think what I would prefer to do
is, if the parties wish to, permit you an opportunity to
submit a brief, memoranda after the evidence is

60a

completed and have. effectively, closing argument the
following week.
Does that then make -- if we did it on Tuesday,
the 21st, nine o'clock, which was going to be trial time
anyway?
So if you submit your memorandum by noon on
the 20th, that will give me a chance to review it, and
why don’t we make it ton o’clock on the 21st, and it
will be my intention to rule from the bench.
All right?
MR. DENN HE: Yes, your Honor, that’s fine.
MR. BALT 11A Z AR.D: I’m sorry, your Honor.
I was looking for my calendar.
The date for the hearing?
THE COURT: 21st at ten o’clock, which -MS. LEI: And the memo.is due on the 20th.
THE COURT: 0 n the 20th by noon.
. MR. BALTHAZARD: Okay.
THE COURT: This is not an extensive brief,
but something that focuses me on anything that the
parties think will be helpful to me as I think this
through.
MS. LEI: We are expecting to do short
openings as well.
THE COURT: Okay.
MS. LEI: Oknv.
THE COURT: Emphasis on ‘'short”, or
“brief,” I should sav.

70a

MS. LEI: Your Honor, would you like us to
retain custody of the exhibits?
THE COURT: Yes, I would. .
We’ll hold onto I.lie Waiver of Trial By Jury and
the narrative, Defendant’s Trial Stipulation, but
when thing's are concluded, it will become the record.
MR. BALTBAZARD: Thank vou.
THE COURT: But the Defendant’s Trial
Stipulation in its narrative form and the Waiver of
Trial By Jury will he entered on the docket now. I’ll
pass them back to Mr. Lovett for this purpose.
■All right. So 1. will see you on Wednesday, nine
o’clock.
We will be in recess.
THE CLERK: All rise.
(Proceedings adjourned.)
GERTIE I C ATE
I, James P. Gibbons. Official. Court Reporter for
the• United States District Court for the District of
Massachusetts, do hereby certify that t.he foregoing
pages are a 'true and accurate transcription of my
shorthand notes taken in the aforementioned matter
to the best of my skill and ability.
/s/James P. Gibbons
James P. Gibbons

October 29, 2015

JAMES P. GIBBONS, CSR, RPR, RM..R
Official Court Reporter
1 Courthouse Way, Suite 7205
Boston, Massachusetts 02210
jrnsgibbon sihy a hoo. com
/1. a

APPENDIX F
UNITED STATICS DISTRICT COURT
DISTRICT OF MASSACHUSETTS
UNITED STATES OF AMERICA
v.
MICHAEL P. O’DONNELL,
Defendant
Criminal No. 13-10262-DPW
WAIVER OF TRIAL BY JURY
I, MICHAEL P. O’DONNELL, was fully
informed of my right 10 trial by jury in this Case. I
hereby waive that right, and .request the district court
(Woodlock, J., presiding) to try ail issues without a
jury. I also waive my right to special findings.
Defendant’s Signature:

As/ Michael P. O’Donnell
MICHAEL P. O’DONNELL

Date:

7/10/15

Approved:

As/ Jeffrey A. Denner
■JEFFREY A. DENNER

Date:

7/10/15

The United States of America consents to the
defendant’s waiver of a jury trial.
As/ Mark J. Bahhazard
MARK J. UALTBAZARD
VERONICA M. LEI

Date:

Assistant U.S. Attorneys
7/10/15
72a

.APPENDIX G
ORDER:
I find that the defendant has knowingly,
voluntarily, and. intelligently waived the right to. a
jury trial, and I hereby approve the waiver.
/s/
United States District Judge
Dated: July 10, 20.15

73a

APPENDIX H
AO 245B (Rev. 10/15) Judgment in a Crim-ncl Cor.:

'

.

'

;SW____________

United States District Court
District of Massachusetts

)
)
)
)
)
)

UNITED STATES OF AMERICA
T,

MICHAEL P. O'DONNELL

JUDGMENT IN A CRIMINAL CASE
Case Number: I:

13 CU 10262

001 - DPW

USM Number: 95515-038
James L. Sull-m
Defendant's Aitomtj

THE DEFENDANT:
o pleaded guilty lo cuunt(s)

_______ ________

□ pleaded nolo contendere to counts)
Which was accepted by the court.
0 was found guilty-on counts)
.after a plea of not guilty.

________

___________

The defendant is adjudicated guilty of these offenses:
Title & Section
18USC.fi .1344

£0?UI< Ended
fu:2n/T?

Nature of Offense
Attempted Bank Fraud

6

The defendant is sentenced as provided in pages 2 through
the Sentencing Reform Act of 1984.
□ The defendant has been found not guilty on ccunt(s)
O Count(s)

□ is

of this judgment. The sentence is imposed pursuantto

__
Pj arc dismissed on the motion of the United Stater.

m

Dillf f>r Jpipnsitirm o

U-lLfy

I

SHjnniu/'e of Judge

Douglss P. Woodlock
United State? District judge
- p(: Tl»lr* :-f Ji'.'Jjw*

tVUju £.-{/ //}
ri-u-" ”

7-la

Count

.A0245H (Riv. 1(VI J) Judgment in Criminal Case
.........
Sheet 2 «»■ Inprisorungni
Judgmcn: — Psoc__ \___ of

DEFENDANT: MICHAEL P. O'DONNELL
CASE NUMBER; 1:13 CR 10262 - 00] - 1)PW
IMPRISONMENT
Tile defendant is hereby committed to the custody of the Unite;! hifttes Bureau of Prisons to be imprisoned for a
totei term of:
36
monlh(s)

0 The bourt. makes the .following recommendations to the Bureau of Prisons:
■liThat.the defendant be designated to serve his sentence ot SCP Devons.
2. That the defendant participate in a program for substance abuse as directed by the Bureau of V'risons.
The defendant is remanded to the custody of ihe United Shirt M*rsh?!.
D The defendant shall surrender to the United Suites Marsh*! for 'hi- district:

□ of

O a.m.

□ p-m.

on

_

O as notified by the United States Marshal.
El:. -The defendant shall surrender for service of sentence at the insiiuuion designated by the Bureau of Prisons:
0 before 2 p.m. on

1/25/2016

D as notified by the United States Marshal.
O as.hbtified by the Probation or Pretrial Services Office

RETURN
fhavc executed this judgment as follows:

Defendant delivered on
a

10

, with a ccitificd :upv of [his judgment.

UNITED STATES '-ARSMAi.

By
* iXPUTY UNITED S TA*f rI; S*M A It S! -IA L

75a

6

t

A0343B (Rev. 10/15) Judgment inaCriminil Cass
Shsci3 —- Supeiviscd tlfhasc
JudK;r.en:---f-of,.g

T

of

DEFENDANT: MICHAEL P. O’DONNELL
- CASENUMBER: 1:13 CR Jft262 - 001 - DPW
SUPERVISED RELEASE
Upon reledse.from imprisonment, the defendant shall be on supervis'-d release fora term of:

2

ycarfs)

The defendant must report to the probation office in the dirffi d to which the dcfsndar.l is released within 72 hours of release from the
Hite defendant shall not commit another federal, state or local crime.
The defendant shall not unlawfully pos scss a controlled substance, '
substance. The defendant shall submit to one
thereafter, as determined by the court.

defendant shulj refioin from aiiyj unlawful esc of a^control!ed^

p

The above drug testing condition is suspended, based nn ihcc.o rt‘< detenninarion (bat the defendant poses f. low risk of
future substance abuse. fOtccl, tfapplicable.)

0

The defendant shall not possess a firearm, ammunition, destructive device, or any other dangerous weapon. (Check, if applicable.)

□

The defendant shall cooperate in the collection of D’NA as directed r>v the probation officer. (Check ifeppi

works, is a student, or was convicted of a qualifying offense.
.Q

v-.-r </.ic.p/r<-n‘>;?;

The defendant Shall participate in an approved program fir con.;';.;:.- violence. (Ow,% if applicable.)

S h dul Ifth^judgment imposes a line or restitution, it is

cofiffitm-* -v -.cx-xvised release that the defendant pay in accordance with the

The defendant must comply with the stand arc! conditions that have been adopted by tins court as well a? wish any additional'conditions
on the attached page.

STANDARD CONDITION'S OF SIJPF.K VISION
1)

thedefendanl'shall not leave the judicial district without the permission of the coon or probation officer; .

2)

the defendant shall report to the probation officer in r: manner and frequency directed by the court or probation officer;

3)

the defendant shall answer truthfully ail inquiries by the probation officer and fallow the instructions of the probation.officer;

i)

:the defendant shall support his or her dependents andotbci himily responsibilities;

.5)

the defendant shall work regularly at a lawful occupation. ur.Srss excused by the probation 'officer for schooling, training, or Other
acceptable reasons;

6)

the defendant shall notify the probation officer ni least

kt

days prim to any ehuniju. :n residence or

iployroent;

7) the defendant shall refrain from excessive use of alcohol aid •;!bail nut purchase, pcs-icss, use, distribute, or administer any
• - controlled substance or ary paraphernalia rein icd to any centro
8)

the defendant shall not frequent places where controlled substances sue illegally smd. used, distributed. ;:r administered;

9)

the defendant shall not associate withany persons engaged irycriminal activity ami shall not associate with cny person convicted of a

10)

the defendant shall permit n probation officer to visit him or her at 3ny time at home or elsewhere and shall permit confiscation of any
contraband observed in plain view of the probation officer;

U)

the defendant shall notify the probation officer within Severn;,-two hours of being incited or questioned by a iaw enforcement officer;.

12)

ihc defendant shall riot enter Into any agr cement to
permission of the court; and

13)

-as directed by’the probation officer, the defendant shall .v>ti*y rt-ir-.t panics of risks the; noy be occasioned by the defendants criminal
ccr U
defendanl^ compliancc with such notification K-qirir.-uvuii.

a«. ari informer or a special siren! of a iaw enforcement agency without the

76a

A0.245B (Re*. IO/li)^udgmen( in a Criminal Case
■Sheet 5 — Criminal Monetary Penalties
.lii.1gmr.flt — I'ngi.

__

of

T

DEFENDANT: MICHAEL P. O'DONNELL
CASE NUMBER:
1: 13 CR 10262 - 001 - DEW

CRIMINAL MONETARY PENAL TIES
Tht defendant must pay tile iota! criminal monetary pen lilies unelci :V.e schedule Oi pavmcnts on Sheet 6.
Assessment

TOTALS

13

S -100.00

!?

Hie determination of restitution is deferred until
after .such determination.

s

1SO.OQO.QO

. An

Amended J’lrigm

in a Criminal C<j*r fr>o usc> will be entered

D The defendant must make restitution ('me!udini; i:nmir::r ny rcvi !!u>ir:r>) so ihr follow; r>e* payees in the amount listed below.
civ: jo:

mtmsmmm
mmmsL.
Name of Pavee

Tcit! Loss*

■S-.

i«3i

Restitution Ordered

Priority or Percentage

' V-'liiF

~r „

tis**

'i ./

■

77

11M1IIII1I
TOTALS :
.□
D

Q.

s

0.00

•

0.00

Restitution amount ordered pursuant to pica agreenicm S
THe'defendant must pay interest or reslitulion and a One r.-f n-.'m: ih :n S2.500. unless die restitution or fins is paid in full before the
fifteenth "day after the date of the judgment, pursuant to U: U - C. f v, ■ q a |j ,;,f iiR- payment options on Sbuet 6 may be subject
to penalties for delinquency and default, pursuant to I* U. $.(.;. J
1 he court determined that Ihe defendant does rot hnv.1 1 }*.,* Rhiihy to pay interest ?n.i ii is ordered that:
□ the interest requirement is waived for the.
□ the interest requirement foi (lie

Q

fine

□

fireQ]

i_J 'restitution.

r;sii:n:i -m is modified as fo'Iows:

•Findings fqr the lolhl amount of losses arerr.^iircii m>d«r Chr'p'frs : f V \ ''!

-77a

i 10a, and ’ i '-A ofTiilr. 18 foi offenses committed onorafter

A0245B i’(Rev. tO/15) Judgment in a Criminal Cam
. . Sheet 3A—Supervised Reltast

Jiitfgtncm— Png,;

~b

of

6

DEFENDANT: "MICHAEL' P. O'DONNELL

CASE NUMBER:

1:13 CP 10262

- OOi - DPW

ADDITIONAL SUV Mi VIS F.l> RELEASE TERMS
1. The'defendantls prohibited from possessing a firearm, destructive device, or other dangerous.weapon.
2; The:defenclant Is to pay the balance of any Fine imposed according to a court-ordered repayment schedule,
3..The defehdanUs'pfOhibited from incurring new credit rrhames or opening additional lines of credit without the approvalbf
the Probation Office while any financial obligations remain outstanding.
4. The defendarit Is fo!-pirovide the Probation Office ac:wsx lo any requested finarctel information, -which may be .shared'
with the PlnSncial Litigation Unit of the U.S. Attorney's OfLro.
5. The defendantlsrto participate in a program for suhsbvu.a abuse as directed by the United States Probation Office,
'v^lch':hrogram;may include'tesling, notto exceed 10* drug test? per year, to determine'whether the defendant .has
reverted to die use of aicohol or drugs. The defendant shall i.m required to contnhu'e to the costs o■ services for suchtreatment based on the ability to payor availability of third party payment. '

78a

